HHS/OIG, Audit - "Safeguards Over Controlled Substances at Lawton Indian
Hospital," (A-06-06-00035)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Safeguards
Over Controlled Substances at Lawton Indian Hospital," (A-06-06-00035)
December 5, 2006
Complete Text of Report is available in PDF format (574 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Lawton Indian Hospital (Lawton) complied with applicable requirements to secure and account for its Schedule II substances. Schedule II controlled substances are certain addictive drugs, the possession and use of which are regulated under the Controlled Substances Act (the Act) of 1970. Schedule II substances have the highest potential for abuse among controlled substances with an accepted medical use.
Lawton did not always comply with applicable requirements to secure and account for its Schedule II substances. Lawton did not appropriately secure or have adequate internal controls over its Schedule II substances at all locations. Lawton also did not appropriately account for its Schedule II substances at all locations.
We recommended that IHS direct Lawton to enforce the following security and internal controls: (1) at the main pharmacy, (a) store Schedule II substances in a locked safe during pharmacy hours, (b) consider monitoring Schedule II substances with an alarm system after pharmacy hours, and (c) separate key duties and responsibilities related to Schedule II substances among pharmacists; and (2) at the emergency room’s automated dispensing unit, ensure that medical staff do not share identification codes and passwords.
We further recommended that IHS direct Lawton to enforce the following accountability controls: (1) at the dental clinic, perform random checks of controlled-drug inventories against medical records each month to ensure that Schedule II substances are administered to patients (2) at the main pharmacy, continue to submit monthly Schedule II inventory reports to the area pharmacy officer and (3) at the automated dispensing units in the emergency room and surgical ward, ensure that the disposal of wasted Schedule II substances is appropriately documented.
IHS concurred with our findings and recommendations and stated that Lawton had implemented, or was currently implementing, all recommended corrective actions.